WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

MAY 2 7 2021
OFFICE OF THE CLERK

No. 20-1510

Louis Tafuto

v.

Donald J. Trump for President, Inc., et
al.
(Respondents)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
X I am filing this waiver on behalf of all respondents.
0

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

X I am not presently a me
i
response will be filed by a
to: Supreme Court, Attn:

this Court. Should a response be requested, the
mber. (Filing Instructions: Mail the original signed form
ffice, 1 First Street, NE, Washington, D.C. 20543).

Signature
Date: May 25, 2021
(Type or print) Name Patrick McPartland, Esq.
X Mr. 0 Ms. 0 Mrs. 0 Miss
Firm

LaRocca Hornik Rosen & Greenberg LLP

Address 40 Wall Street, 32nd Floor
City & State
Phone

New York, New York

(212) 530-4837

Zip
Email

10005

pmcpartland@lhrgb.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

RECEIVED
cc:

Mr. Louis Tafuto
314 Route 94 South, # 86
Warwick, New York 10990
Petitioner pro se

JUN - 4 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

